'j

20-

N

SUPREME COURT OF THE UNITED STATES
MICHAEL DRAKE,

rafpii

Petitioner,

B.
jg*

5

vs.
COMMONWEALTH OF PENNSYLVANIA
Respondent.

On Petition for a Writ of Certiorari to
the Superior Court of Pennsylvania

PETITION FOR A WRIT OF CERTIORARI

FILED
MAR 1 6 2021
mEM°EFC^UER^

MICHAEL DRAKE, LK-2454
SCI Benner Township
301 Institution Drive
Bellefonte, PA 16823

*^
V

Question Presented
Did the Pennsylvania Superior Court ignore the Sixth and Fourteenth
Amendments when it found no issue with trial counsel’s failure to
protect his client from false prior bad acts information and no steps
were ever taken to cure the issue by the trial court?

1

-r

TABLE OF CONTENTS

Question Presented

1

Table of Contents

11

Table of Authorities

m

Petition for Writ of Certiorari,

1

Opinions Below

1

Jurisdiction

1

Constitutional Provisions Involved

2

Statement of The Case

2

Reasons for Granting the Writ,

5

Conclusion

8

Appendix

9

A. Superior Court Opinion, July 16, 2020

A1

B. Trial Court Opinion, August 14, 2019

A12

C. Supreme Court Order Denying Allocatur, December 1, 2020

A44

ii

TABLE OF AUTHORITIES

CASES
Commonwealth v. Durant. 407 A.2d 1311 (Pa. Super. 1979)
Krulewitch v. U.S.. 336 U.S. 440 (1949)

4

Michelson v. U.S.. 335 U.S. 469, 475 (1948)

5

Strickland v. Washington- 466 U.S. 668 (1984)

5

STATUTES
1

28 U.S.C. §1257
Constitutional Provisions
United States Constitution, Amendment VI

2,5

United States Constitution, Amendment XIV,

2,5

m

PETITION FOR WRIT OF CERTIORARI
Michael Drake, an inmate currently incarcerated at State Correctional Institution
Benner Township at Bellefonte, Pennsylvania, respectfully petitions this court for a writ of
certiorari to review the judgment of the Pennsylvania Superior Court.

OPINIONS BELOW
The decision by the Pennsylvania Superior Court denying the Petitioner’s appeal
dated July 16, 2020 is attached at Appendix (“App.”) at 1-11. The trial court opinion dated
August 14, 2019 is attached at App. at 12-43. The Pennsylvania Supreme Court denied the
Petitioner’s petition for allowance of appeal on December 1, 2020. That order is attached at
App. at 44.

JURISDICTION
Petitioner’s petition for allowance of appeal to the Pennsylvania Supreme Court was
denied on December 1, 2020. Petitioner invokes this Court's jurisdiction under 28 U.S.C. §
1257, having timely filed this petition for a writ of certiorari within ninety days of the
Pennsylvania Supreme Court's judgment.

1

CONSTITUTIONAL PROVISIONS INVOLVED
Amendment VI, of the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the state and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
Amendment XIV, section 1, of the United States Constitution provides in part:
No State shall ... deprive any person of life, liberty, or property, without due
process of law[.]

STATEMENT OF THE CASE
On November 28, 2010, police officers were called to a residence in Philadelphia. At
approximately 5:38 a.m., officers found the Complainant covered in blood and she told
officers she had been raped. Officers inspected the house and found blood upstairs,
downstairs, and broken windows and a broken glass cabinet. She was transported to the
Hospital. The Petitioner was arrested on July 19, 2011.
After numerous continuances, a trial was held, in absentia, on August 5, 2013. The
Complainant was brought in to testify on a warrant after failing to appear for trial
previously. She testified that she was on multiple prescription drugs for depression as well
as high on marijuana laced with crack cocaine and under the influence of alcohol. She was
also under supervision by the courts on a prostitution case. The Complainant stated that,
on the night in question, she stopped by a bar on the way to her friend’s house. She met
the Petitioner at a bar on her way to meet a friend and they left together. It was extremely
late at night, but she stated she was either going to babysit her grandchildren at her

2

boyfriend’s or her boyfriend’s children although her story was not consistent.
In either instance, the Petitioner and Complainant stopped at a store to get sundries
before stopping at the Petitioner’s house which was a block away from her friend’s home.
The trip took no more than ten minutes.

She asked to use the Petitioner’s bathroom

because her friend would be home in five to ten minutes. She used the bathroom and when
she attempted to leave she was punched in the face and raped. She asked to go upstairs to
the bathroom again to look at her face and she did so.

After she returned, she said he

kissed her while she was bleeding from the mouth. When cross examined, she claimed he
did not kiss her after she came down the stairs and she never said he kissed her. She said
he was completely naked at this point. She punched through a glass cabinet to get a weapon
because she feared for her safety. The Petitioner inexplicably gained a pair of jeans and fled
the house after she obtained the broken glass. She went on to break out the front windows
after he fled and obtained help from the neighbor. A tampon was removed from her at the
hospital.

During the course of her testimony, the complainant had many inflammatory

outbursts. She also introduced false prior bad acts testimony that was unresponsive to the
question asked by defense counsel. The exchange read as follows:
[Trial Counsel]: Ma’am, you said that you didn’t know him, right?
[The Complainant]: I know he is the person that raped me. I did not know
him. I know him from pointing him out in pictures to police officers and
believing that he has a previous past of it, from what the officer is saying.”
The Court: Ms. ...[The Complainant]: Can it just be over with?
The Court: Ms. ..., you need to answer the question, which is, Did you know

3

«*

id m

him?
[The Complainant]: No, I did not know him.
Appendix B at APP 7. Trial counsel never objected, moved for a curative instruction
or asked for a mistrial. The trial court also did nothing.
Ultimately, the Petitioner was found guilty of aggravated assault, rape by forcible
compulsion, sexual assault, and indecent assault by forcible compulsion. Subsequently, the
Petitioner was apprehended. On February 7, 2014, Petitioner was sentenced to an aggregate
sentence of twenty-to-forty years incarceration.

Petitioner did not file any post-sentence

motions.
On March 10, 2014, Petitioner filed a notice of appeal.

On June 18, 2015,

the

Pennsylvania Superior Court affirmed the judgment of sentence. On April 18, 2016,
Petitioner filed a timely pro se Post-Conviction Relief Act (PCRA) petition.

On May 25,

2017, an amended PCRA petition was filed which claimed, among other things, ineffective
assistance of trial counsel for failing to move for a mistrial or ask for a curative instruction
due to inflammatory information and false prior bad acts testimony from the complainant.
The petition was supplemented on October 27, 2018, Trial counsel dragged out the PCRA
proceedings for months by refusing to cooperate in the process. The Commonwealth moved
to dismiss the case, in part, because Petitioner could not obtain a witness statement from
trial counsel due to his stonewalling that went on for nearly a year. On April 12, 2019, an
evidentiary hearing was finally held and the trial court denied the PCRA petition.
On May 6, 2019, a notice of appeal was filed. Petitioner claimed that the trial court
erred when it failed to find trial counsel was ineffective among other claims.

On July 16,

2020, the Superior Court issued its opinion which affirmed the lower court. A petition for

4

an allowance of appeal was filed on August 14, 2020. The Pennsylvania Supreme Court
denied allocatur on December 1, 2020. This petition followed.

REASONS FOR GRANTING THE WRIT
The Pennsylvania Superior Court is creating a bleak future where trial counsel can
abdicate their duty to defend their client and complainants can say whatever falsehood they
wish to unbalance a trial. Petitioners will have no recourse from this injustice unless this
Court puts a stop to it.
It is settled that a criminal defendant is entitled to the effective assistance of
counsel. See Strickland v. Washington. 466 U.S. 668 (1984). Petitioner was denied his right
to due process under the Fourteenth Amendment and his Sixth Amendment right to counsel
when his trial/direct appeal counsel failed to object, move for a mistrial, or ask for curative
instructions when false prior bad acts statements and other inflammatory information was
injected into the trial by the Complainant. Here, the Petitioner was charged with rape. The
only witnesses to the majority of the events were the Complainant and the Petitioner. The
defense theory of the case was a sex for drugs prostitution case where the Complainant
became enraged after the drugs ran out.
credibility.

The case rested solely on the Complainant’s

During the course of a rape trial, the Complainant stated that the police told

her the Petitioner had a history of rape.
sexual offenses.

The Petitioner had no history of rape or any

The only other potential witness to the matter was not called by trial

counsel even though her story contradicted the Complainant’s.

See Appendix A at APP 8-

11. With so much resting on credibility, the false prior bad acts information unbalanced the
case and deprived the Petitioner of a fair trial. This could have been prevented had counsel
been effective.
5

A sample of the non-responsive statements made at trial are as follows: “The same
way he raped me, he could rape somebody's kid.” “Let it happen to someone else's family
member and then they can explain what I went through.” “What is the excuse for a man
being less than a man being a animal? There is no excuse for a man being an animal.”
Additionally, the complainant was non-responsive to a question on cross-examination and
went on a tirade—too long to reproduce—about her substance abuse history, police interview,
and the Appellant, which even prompted the prosecution to object. Other than the objection
by the prosecution, to their own witness, there was no objection or attempt to put a stop to
the injection of prior bad acts information and prejudicial remarks.

If one goes over the

notes of testimony, these outbursts occur whenever trial counsel came close to impeaching
the Complainant.

Instead of pressing on with impeaching the complainant, trial counsel

was deterred and did not attempt to mitigate the damage caused by the outbursts.
This Court has previously held that prior bad acts evidence is inadmissible in a
criminal prosecution as part of the government's case against the defendant. See Michelson
v. U.S.. 335 U.S. 469, 475 (1948). Although, here, the prosecution did not elicit the prior
bad acts statement. Instead, the Complainant-an individual with a vested interest in seeing
the Petitioner found guilty like the prosecution-did not answer the questions presented to
her and introduced false prior bad acts information.

If this Court objects to the

prosecution’s use of such information, it should also do so for individuals with a vested
interest in seeing the Petitioner convicted. To do otherwise would be to open a back-channel
for the entry of this destabilizing information with little recourse for defendants.

The

Superior Court of Pennsylvania, unfortunately, found no issue with this state of affairs. See
Appendix A at APP 6-7. This is perplexing as they previously addressed a case exactly on

6

point and found issue with the situation.

See Commonwealth v. Durant.

407 A.2d 1311,

1311-12 (Pa. Super. 1979) (holding a mistrial should have been granted where the mother of
a child—who was alleged to have been sexually assaulted by the defendant-brought up the
fact that the defendant recently had been released from prison.)

Here, they seemed to

ignore their prior holding and found that it was a valid strategy not object or ask for a
mistrial so as not to bring attention to the statement, which makes no sense for multiple
reasons.
First, trial counsel could have confronted this head on and essentially had the judge
impeach the witness for him through a curative instruction telling the jury that what she
stated was false and the Petitioner had no history of sex crimes. Trial counsel also could
hqve asked for a mistrial. Instead, trial counsel did nothing and let a jury in a rape case
believe his client was a serial rapist. This was not some passing event as the Complainant
kept saying highly prejudicial comments that had no relevance to the case. The whole case
rested on the complainant’s credibility and she was allowed to unbalance the scales.

The

Superior Court even agreed that the strongest defense rested on showing the complainant’s
lack of credibility. See Appendix A at APP 10. A curative instruction would have cast trial
counsel’s client in a good light and undermined the Complainants credibility by showing she
was lying.

It makes no strategic sense to ignore that the jury just heard your client is a

serial rapist when it is not true.

Finally, the Superior Court said it was trial counsel’s

strategy not to bring attention to the statement. Trial Counsel never said that when he was
asked

about his

strategy—even

when prompted with the

“right”

answer by the

Commonwealth. It is not in the record.
What absolutely sets this case apart from other cases is that the prior bad acts

7

information was entirely made up and no one did anything to correct the issue. It was also
highly prejudicial because the fictitious prior bad act was the exact same charge that the
Petitioner was facing.

This Court previously noted that, “[t]he naive assumption that

prejudicial effects can be overcome by instructions to the jury [...] all practicing lawyers
know to be unmitigated fiction.” Krulewitch v. U.S.. 336 U.S. 440, 453 (1949).

We have

now reached the point where Pennsylvania courts are even disposing of the fiction that
curative instructions can put the genie back in the bottle.

With this holding, the

Pennsylvania Superior Court is signaling that it just does not care if prior bad acts
information is inserted into a trial—even false prior bad acts.

This effectively strips a

Petitioner of their presumption of innocence and mutilates due process. A complainant can
now claim a Petitioner is a rapist, murderer, or whatever crime they dream up and there
will be no relief due. The jury need not be instructed about those statements and trial
counsel is absolved of all duty to prevent this injustice. This is abhorrent to any notion of a
fair trial and it should not be allowed to stand.

CONCLUSION
For the foregoing reasons, Petitioner respectfully requests that this Court issue a
writ of certiorari to review the judgment of the Pennsylvania Superior Court.

Date:

llltftl /C

Michael Drake, LK-2454
SCI Benner Township
301 Institution Drive
Bellefonte, PA 16823

(
8

